REVIEW OF WEB APPLICATIONS SECURITY
      AND INTRUSION DETECTION
  IN AIR TRAFFIC CONTROL SYSTEMS
        Federal Aviation Administration

         Report Number: FI-2009-049
          Date Issued: May 4, 2009
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Review of Web                                          Date:    May 4, 2009
           Applications Security and Intrusion Detection
           in Air Traffic Control Systems
           Report Number: FI-2009-049
  From:    Rebecca C. Leng                                                       Reply to
                                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits
    To:    Acting Federal Aviation Administrator

           This report presents the results of our audit of Web applications security and
           intrusion detection in air traffic control (ATC) systems. This audit was requested
           by the Ranking Minority members of the House Committee on Transportation and
           Infrastructure and its Aviation Subcommittee.

           Homeland Security Presidential Directive (HSPD)–7 designates air traffic control
           systems as part of the Nation’s critical infrastructure due to the important role
           commercial aviation plays in fostering and sustaining the national economy and
           ensuring citizens’ safety and mobility. Essentially, HSPD-7 requires the Secretary
           of Transportation to ensure that the ATC system is protected from both physical
           and cyber security threats to prevent disruptions in air travel and commerce.

           The need to protect ATC systems from cyber attacks requires enhanced attention
           because the Federal Aviation Administration (FAA) has increasingly turned
           toward the use of commercial software and Internet Protocol (IP)1-based
           technologies to modernize ATC systems. While use of commercial IP products,
           such as Web applications,2 has enabled FAA to efficiently collect and disseminate
           information to facilitate ATC services, it inevitably poses a higher security risk to
           ATC systems than when they were developed primarily with proprietary software.
           1
               Internet Protocol (IP) is a communications standard describing how data are sent from one computer to
                another over the Internet.
           2
               A Web application is a software program running on a Web server that can be accessed by using a Web
                browser. A Web server may host multiple Web applications. For purposes of this report, we use “Web
                application” to refer to either a Web application or a Web server.
                                                                                 2



Now, attackers can take advantage of software vulnerabilities in commercial IP
products to exploit ATC systems, which is especially worrisome at a time when
the Nation is facing increased threats from sophisticated nation-state-sponsored
cyber attacks.

Accordingly, the objectives of this performance audit were to determine whether
(1) Web applications used in supporting ATC operations are properly secured to
prevent unauthorized access to ATC systems, and (2) FAA’s network intrusion-
detection capability is effective in monitoring ATC cyber-security incidents.

KPMG, LLP, of Washington, D.C., under contract to the Office of Inspector
General (OIG), completed the audit work for the first objective. This work
included vulnerability assessment and penetration testing on selected Web
applications used in supporting ATC operations. We performed a quality control
review of the audit work carried out by KPMG to ensure that it complied with
generally accepted government auditing standards. In our opinion, KPMG’s audit
work complied with applicable standards. We supplemented KPMG’s work by
conducting an analysis of significant cyber incidents reported by FAA in recent
years. KPMG’s report detailing findings of vulnerabilities and penetration results
was provided to FAA in November 2008 for corrective action. This report
summarizes both KPMG’s and our results.

We performed audit work to address the second objective. This work included
analysis of FAA’s cyber intrusion-detection capability and interviews with key
personnel. We conducted our audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Details of our scope and methodology are described
in Exhibit A.


RESULTS IN BRIEF
Web applications used in supporting ATC systems operations are not properly
secured to prevent attacks or unauthorized access. In addition, FAA has not
established adequate intrusion-detection capability to monitor and detect potential
cyber security incidents at ATC facilities.
                                                                                                       3



Web Applications Security

We tested 70 Web applications, some of which are used to disseminate
information to the public over the Internet, such as communications frequencies
for pilots and controllers; others are used internally within FAA to support eight
ATC systems.3 Our test identified a total of 763 high-risk, 504 medium-risk, and
2,590 low-risk vulnerabilities,4 such as weak passwords and unprotected critical
file folders.

By exploiting these vulnerabilities, the public could gain unauthorized access to
information stored on Web application computers. Further, through these
vulnerabilities, internal FAA users (employees, contractors, industry partners, etc.)
could gain unauthorized access to ATC systems because the Web applications
often act as front-end interfaces (providing front-door access) to ATC systems. In
addition, these vulnerabilities could allow attackers to compromise FAA user
computers by injecting malicious code onto the computers. During the audit,
KPMG and OIG staff gained unauthorized access to information stored on Web
application computers and an ATC system, and confirmed system vulnerability to
malicious code attacks.

    ¾ Unauthorized access was gained to information stored on Web application
      computers associated with the Traffic Flow Management Infrastructure
      system, Juneau Aviation Weather System, and the Albuquerque Air Traffic
      Control Tower;

    ¾ Unauthorized access was gained to an ATC system used to monitor critical
      power supply at six en route centers; and

    ¾ Vulnerability found on Web applications associated with the Traffic Flow
      Management Infrastructure system was confirmed, which could allow
      attackers to install malicious codes on FAA users’ computers.




3
  While Web technologies are used to support many ATC systems, this audit covered only the following
  eight systems: FAA’s Air Route Traffic Control Center Critical Essential Power System Power
  Monitoring System (APMS), TECHNET, En Route Automation Modernization/En Route Information
  Display System (ERAM/ERIDS), Computer-Aided Engineering Graphics (CAEG), Automated Inventory
  Tracking System ver. 2 (AITSv2), Airport Surveillance Radar—Local Area Network (ASRLAN), Juneau
  Aviation Weather System (JAWS), and Traffic Flow Management Infrastructure (TFM-I).
4
  High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as
  allowing execution of remote commands. Medium-risk and low-risk vulnerabilities may provide an
  attacker with useful information, such as error messages revealing system configuration, that they can
  then use to compromise a computer system.
                                                                                                            4



This occurred because (1) Web applications were not adequately configured5 to
prevent unauthorized access and (2) Web application software with known
vulnerabilities was not corrected in a timely matter by installing readily available
security software patches released to the public by software vendors.

Intrusion-detection Capabilities

To effectively monitor and detect potential cyber-security incidents on a network,
intrusion-detection-system (IDS) sensors need to be installed at various critical
network points. There, sensors automatically generate security alerts when
potential cyber attacks are detected so that further incident response can be made.
FAA’s intrusion-detection capability is ineffective because of inadequate
deployment of IDS sensors at the facility level and a lack of timely remediation of
incidents detected. Specifically,

     ¾ ATC systems are located at hundreds of operational facilities such
       as en route centers, terminal radar approach control facilities, and airport
       control towers. However, IDS sensors have been deployed to only 11 of
       these ATC facilities. Further, none of the IDS sensors are installed to
       monitor ATC operational systems at these facilities, such as the IP-based
       network associated with the Host Computer System. Instead, these sensors
       provide monitoring coverage only for mission-support systems, such as e-
       mail systems.

     ¾ During Fiscal Year (FY) 2008, more than 800 cyber incident alerts were
       issued to the Air Traffic Organization (ATO), which is responsible for ATC
       operations. As of the end of FY 2008, over 150 incidents (17 percent) had
       not been remediated, including critical incidents in which hackers may have
       taken over control of ATO computers.

Without fully deploying IDS monitoring capability at ATC facilities and timely
remediation against cyber incidents, FAA cannot take effective action to stop or
prevent these cyber attacks, thus increasing the risk of further attacks on ATC
systems.

In recent years, serious cyber attacks have occurred on FAA networks. For
example, in February 2009, hackers compromised an FAA public-facing Web
application computer and used it as a conduit to gain unauthorized access to
personally identifiable information (PII) on 48,000 current and former FAA
employees. In 2008 hackers took control of FAA’s critical network servers
5
    Software configuration involves setting up a software system for one’s particular uses, such as changing a
    factory-set default password of “PASSWORD” to one less easily guessed.
                                                                                                      5



(domain controllers) and gained the power to shut down the servers, which could
cause serious disruption to FAA’s mission-support network. In 2006 a viral
attack, widely distributed on the Internet, spread to FAA’s ATC systems, forcing
FAA to shut down a portion of its ATC systems in Alaska.

In our opinion, unless effective action is taken quickly, it is likely to be a matter of
when, not if, ATC systems encounter attacks that do serious harm to ATC
operations. As indicated by the former Director of National Intelligence,

                   “Our information infrastructure . . . increasingly is
                   being targeted for exploitation and potentially for
                   disruption or destruction. . . . Terrorist groups . . .
                   have expressed the desire to use cyber means to target
                   the United States. . . . It is no longer sufficient for the
                   U.S. Government to discover cyber intrusions in its
                   networks, clean up the damage, and take legal or
                   political steps to deter further intrusions. We must
                   take proactive measures to detect and prevent
                   intrusions from whatever source, as they happen, and
                   before they can do significant damage.”6

We made a series of recommendations beginning on page 11 to help enhance
security over Web applications used in supporting ATC operations and improve
the effectiveness of FAA’s cyber-incident-monitoring and -response capabilities.
FAA concurred with all of our recommendations, and recognized that constant
vigilance and effective action are the keys to addressing cyber security in its ATC
systems. The response can be found in its entirety in Appendix A.


FINDINGS

Web Applications Used in Supporting ATC Systems Operations
Are Not Properly Secured

Web applications used in supporting ATC systems operations are not properly
secured to prevent attacks or unauthorized access. KPMG staff conducted two
separate security tests—one originated from the Internet and the other from FAA
Headquarters’ mission-support network. Due to time and resource constraints,
only 70 Web applications were tested. Thirty-five of these Web applications are

6
    Annual Threat Assessment of the Director of National Intelligence for the Senate Select Committee on
    Intelligence (J. Michael McConnell, Director of National Intelligence, February 5, 2008).
                                                                                6



used by FAA to disseminate information to the public over the Internet, such as
communications frequencies for pilots and controllers; others are used internally
within FAA to support the eight ATC systems. The tests identified a total of 763
high-risk, 504 medium-risk, and 2,590 low-risk vulnerabilities (see Table 1).

  Table 1. Internet-based and Internal Security Testing Results

                             Number of       Number of Vulnerabilities
                        Web Applications         and Risk Level
                                 Tested       High    Medium        Low
         Internet-
         based
         (Public Use)                  35       212         169    1,037
         Internal
         (FAA Use)                     35       551         335    1,553
          Total                        70       763         504    2,590
        Source: KPMG

High-risk vulnerabilities may provide an attacker with immediate access into a
computer system, such as allowing execution of remote commands. Medium-risk
and low-risk vulnerabilities may provide an attacker with useful information, such
as error messages revealing system configuration, that they can then use to
compromise a computer system. The following are examples of risks to ATC
systems as a result of Web application vulnerabilities:

  ¾ Vulnerabilities allowed unauthorized access to information stored on Web
    application computers. Vulnerabilities found in Web application computers
    associated with the Traffic Flow Management Infrastructure system, Juneau
    Aviation Weather System, and the Albuquerque Air Traffic Control Tower
    allowed KPMG and OIG staff to gain unauthorized access to data stored on
    these computers, including program source code and sensitive PII.

  ¾ Vulnerable Web applications were used as conduits to gain unauthorized
    access to and potentially compromise ATC system operations. Through
    vulnerable Web applications, KPMG staff gained unauthorized access to the
    Power Monitoring System at six en route centers—Anchorage, Boston,
    Denver, Oakland, Salt Lake City, and Seattle. While this system is not used
    to separate aircraft, it provides the critical mission-support function of
    eliminating voltage dropouts and surges caused by sources outside ATC
    facilities. The unauthorized access enabled KPMG staff to generate power
    condition reports, which could be used by attackers as intelligence
    information for planning attacks. A similar incident actually occurred in
                                                                                                         7



         February 2009. By using a vulnerable public-facing Web application
         computer as a conduit, hackers gained unauthorized access to 48,000 PII
         records stored in an FAA database.

     ¾ Vulnerable Web applications could allow attackers to execute malicious
       codes on FAA users’ computers. This vulnerability was found on Web
       applications associated with the Traffic Flow Management Infrastructure
       system. Once infected via these applications, FAA user computers would
       take orders from hackers to attack other computers or send critical network
       information to hackers (“exfiltration”).7 A similar incident actually occurred
       in August 2008. By executing malicious codes, hackers took control of
       FAA’s critical network servers (domain controllers) and gained the power to
       shut down the servers, which could have caused serious disruption to FAA’s
       mission-support network.

So far most attacks have primarily disrupted FAA’s ATC mission-support
function. However, it is important to understand that attacks can spread from the
mission-support network to the operational network—where real-time
surveillance, communications, and flight information is processed to separate
aircraft—because of network connections, as shown in Figure 1.

                Figure 1. ATC IP-based Network Infrastructurea




a
    This infrastructure consists primarily of the backbone FAA Telecommunications Infrastructure (FTI) and
    several local area networks; FAA relies on this infrastructure to conduct ATC operations. ATC systems
    are hosted on local area networks at ATC facilities, which have connections to both FTI operational and
    mission-support networks. (Source: OIG)




7
    In recent years, huge amounts of U.S. Government (including Department of Transportation) and
    commercial data were “exfiltrated” to foreign domains on the Internet. This has resulted in a sweeping
    effort to strengthen Government-wide cyber security by the Office of Management and Budget.
                                                                              8



Because of network connections—authorized (such as performing system
maintenance) and unauthorized (such as inadequate network setup)—between
FAA’s mission-support and ATC systems, the risk of cyber attacks is magnified.
These FAA security-related events of recent years highlight the risk of cyber
attacks:

  ¾ In FY 2006, we reported that FAA’s Remote Maintenance Monitoring
    System was connected to the less-secure mission-support network, which
    created security exposure to ATC operations;

  ¾ In FY 2006, a viral attack originating from the Internet spread from
    administrative networks to ATC systems, forcing FAA to shut down a
    portion of its ATC systems in Alaska;

  ¾ In FY 2008, hackers took over FAA computers in Alaska, becoming FAA
    “insiders.” By taking advantage of FAA’s interconnected networks, hackers
    later stole FAA’s enterprise administrator’s password in Oklahoma, installed
    malicious codes with the stolen password, and compromised FAA’s domain
    controller in its Western Pacific Region. At that point, hackers had the
    ability to obtain more than 40,000 FAA user IDs, passwords, and other
    information used to control a portion of the FAA mission-support network.

  ¾ In FY 2009, hackers compromised an FAA public-facing Web application
    computer on the Internet and used it as a conduit to enter an FAA internal
    database server. Included in the server was PII on 48,000 current and former
    FAA employees, including names, dates of birth, Social Security numbers,
    pay grades/bands, addresses, veterans’ preferences, usernames and
    passwords, and education/medical/health information.

These Web vulnerabilities occurred because (1) Web applications were not
adequately configured to prevent unauthorized access and (2) Web application
software with known vulnerabilities was not corrected in a timely manner by
installing readily available security software patches released to the public by
software vendors.


Intrusion-detection Capabilities Are Not Adequate to Protect
ATC Systems

As previously shown in Figure 1, the ATC IP-based network infrastructure
consists primarily of its backbone FTI wide-area network and numerous local area
networks within ATC facilities. While the FTI wide-area network is monitored by
an FAA contractor, FAA relies on DOT’s Cyber Security Management Center
                                                                                     9



(CSMC) to monitor cyber incidents at the facility level. Adequate monitoring is
critical for ensuring timely detection of network security incidents. However,
FAA’s intrusion-detection capability is ineffective because of inadequate
deployment of IDS sensors and a lack of timely remediation of incidents detected.
Specifically,

  ¾ Cyber incidents were not effectively monitored at ATC facilities. To
    identify potential cyber incidents, FAA needs IDS sensors installed at key
    locations to collect critical information for security analyses. ATC systems
    are located at hundreds of operational facilities such as en route centers,
    terminal radar approach control facilities, airport control towers, and flight
    service stations. However, IDS sensors have been deployed to only 11 of
    these ATC facilities—five en route centers, four terminal radar approach
    control facilities or airport traffic control towers, and the Technical Center in
    Atlantic City and Mike Monroney Aeronautical Center in Oklahoma City
    (see Table 2).

                     Table 2. CSMC IDS Sensor Coverage

                                                         Number of Facilities with
                                                Total     IDS Sensors Installed
                                             Number                      Mission-
                                                    of         ATC        support
           Major ATC Facilities             Facilities      Network       Network
           En route centers                         21            0              5
           Terminal radar approach
           control facilities                     166              0            4
           Airport traffic control towers         512
           Flight service stations                 33              0            0
           FAA Technical Center                     1              0            1
           Mike Monroney
           Aeronautical Center                      1              0            1
           Remote Sites                             *              0            0
             Total                               734#              0           11
       *
           in the thousands
       #
        excluding remote sites
       Source: FAA

     Further, these IDS sensors provide monitoring coverage only for mission-
     support systems at these facilities, not for ATC operational systems. As a
     result, CSMC has little visibility into operations at ATC facilities, and
     cannot identify potential cyber attacks against ATC operational systems.
                                                                                10




     According to CSMC and ATO management officials, effective IDS
     deployment requires close cooperation between CSMC and ATO. However,
     this cooperation has been lacking. Insufficient understanding of FAA
     network infrastructure was also a contributing factor, resulting in
     deployment of IDS sensors on an ad-hoc basis, which made CSMC
     monitoring of ATC systems less effective. For example, FAA has not fully
     studied the connectivity of its network infrastructure (network mapping),
     including the locations of critical network points.

  ¾ Cyber incidents were not remediated in a timely manner. Once a cyber
     incident is detected, it must be examined and remediated quickly to
     minimize the security risk to the network. During FY 2008, ATO received
     877 cyber-incident alerts from CSMC. As of the end of FY 2008, 151
     incidents (17 percent) were still unresolved. Fifty of these had been open for
     more than 3 months, including critical incidents in which hackers may have
     taken over control of ATO computers.

     According to both CSMC and ATO officials, the lack of needed
     information—such as IDS sensor data, critical data being collected on a
     network device in real-time (logging), and complete IP address
     information—was a major factor in being unable to pinpoint the actual
     network location when an incident occurred or the computer affected by the
     incident. This lack of information has significantly impeded ATO’s ability
     to respond to cyber incidents. For example, in March 2008, ATO officials
     directed CSMC to close over 60 unresolved cyber incidents identified in FYs
     2006 and 2007, stating that they were “nonactionable due to inability to
     perform further analysis because of time considerations.”

The Federal Information Security Management Act of 2002 requires agencies to
have procedures for detecting, reporting, and responding to security incidents.
Without effectively deploying IDS monitoring capability at ATC facilities, FAA
cannot be fully aware of potential cyber attacks on ATC systems. More seriously,
the lack of timely remediation against cyber incidents left unsecured FAA
computers on its networks. As a result, FAA cannot take effective action to stop
or prevent these cyber attacks, which increases the risk of further attacks on ATC
systems.
                                                                                     11




RECOMMENDATIONS

We recommend that the Acting Federal Aviation Administrator direct FAA’s
Chief Information Officer and ATO’s Chief Operating Officer to:

1.    Ensure that all Web applications used in ATC systems are configured in
      compliance with Government security standards;

2.    Strengthen the patch management process by (a) identifying Web
      applications with known vulnerabilities, and (b) promptly installing relevant
      security patches in a timely manner;

3.    Take immediate action to correct high-risk vulnerabilities and establish a
      timetable for remediation of all remaining vulnerabilities identified during
      this audit;

4.    Resolve differences with CSMC and establish a timetable for deploying IDS
      monitoring devices covering local area networks at all ATC facilities; and

5.    In conjunction with CSMC officials, identify the information needed for
      remediation and establish procedures to ensure timely remediation of cyber
      incidents based on incident criticality as assessed by CSMC.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on March 3, 2009, and received its
response on April 16, 2009. FAA concurred with all of our recommendations, and
said that it recognized that constant vigilance and effective action are the keys to
addressing cyber security in its ATC systems. FAA also pointed out that a critical
element of its cyber security is the separation of the network infrastructure
between the National Airspace System (NAS) for aircraft separation and FAA
administrative/ATC mission-support systems. We recognize the separation of
FAA’s network infrastructure. However, as stated in our report, cyber attacks can
spread from the mission-support network to the NAS network because of system
interconnections.

FAA further stated that it recognized the importance of dealing with all system
vulnerabilities and will treat vulnerabilities in this report with the utmost diligence.
                                                                                 12



FAA’s response can be found in its entirety in Appendix A. The responses to our
recommendations are summarized as follows:

Recommendation 1: Concurred. FAA stated that it is actively analyzing the
identified vulnerabilities, and will develop new Plans of Action and Milestones
(POA&Ms) based on the analysis. The analysis was scheduled for completion by
April 30, 2009. FAA uses the DOT Secure Web Application Standards as the
basis for securely configuring Web applications, and will ensure that the Web
applications identified in our report are in compliance with these standards. New
system POA&M items will be developed by July 31, 2009.

Recommendation 2:            Concurred.       FAA stated that security patching
vulnerabilities identified in our report will be addressed via the ATO Certification
and Accreditation Remediation Management process. The ATO audit/compliance
team will audit the existence of appropriate security patches.                Patch
implementation will be performed in accordance with established FAA
configuration management processes. These corrective actions will be included in
system POA&Ms by July 31, 2009.

Recommendation 3: Concurred. FAA will ensure that the high-rated
vulnerabilities correlated to FAA systems are handled with high priority for
immediate implementation. Implementation will be tracked via the POA&M
process. FAA is now reviewing detailed data from our testing to assess the
criticality of the vulnerabilities identified. The review was scheduled for
completion by April 30, 2009. Based on the findings, FAA will develop a
timetable for remediation by July 31, 2009. However, FAA agreed to take
immediate action to fix critical vulnerabilities. In follow-up meetings, FAA
committed to sharing its April evaluation results and action plan on fixing critical
vulnerabilities with us in May 2009.


Recommendation 4: Concurred. While FAA believes that its relationship with
CSMC is essentially sound, within 30 days the FAA CIO—along with the CIO for
ATO—will meet with CSMC leadership to discuss strengths and weaknesses of
interactions between their organizations and identify any areas in need of
improvement.

As an additional level of protection, internal NAS facility IP demarcation points
between NAS entities and mission-support entities have been identified by FAA as
requiring additional IDS sensors to be installed. FAA plans to implement IDS
capability at the facilities housing one of the NAS systems (ARTS IIIE) in
                                                                                  13



February 2010. A deployment strategy for the remaining automation systems will
be developed in December 2009.

Recommendation 5: Concurred. ATO has recently implemented two process
improvements: a Reconciliation of Findings process and an Open Incident
Handling process, thereby reducing the number of open incidents. In conjunction
with CSMC, ATO has taken steps to improve timely response of cyber incidents.
Specifically, CSMC and ATO are working together through focused meetings and
cyber security-related workshops to refine the process of identifying the criticality
of incidents for remediation. A refined process will be developed in August 2009.


ACTIONS REQUIRED
FAA’s actions taken and planned are responsive to our recommendations and are
considered resolved. These actions are also subject to follow-up provisions in
Department of Transportation Order 8000.1C.

We appreciate the courtesies and cooperation of the FAA Office of the Chief
Information Officer, ATO, CSMC, OST, and KPMG representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1407 or Dr. Ping Z. Sun, Program Director, at (202) 366-1478.

                                         #

cc:    Acting Chief Information Officer, DOT
       Chief Information Officer, FAA
       Chief Operating Officer, ATO
       Martin Gertel, M-1
       Anthony Williams, ABU-100
                                                                                  14



EXHIBIT A. SCOPE AND METHODOLOGY
This audit was conducted by KPMG of Washington, D.C., under contract to DOT
OIG, and by OIG staff. The audit was conducted at FAA Headquarters, CSMC,
selected FAA facilities and at the FTI operational center in Melbourne, Florida.

OIG staff performed an Internet search and reviewed the ATO Risk Assessment
Process Site Survey Plan. The search and review generated two lists of Web
applications used to support ATC operations. The lists served as a basis for
KPMG’s conducting the external and internal vulnerability assessment/penetration
tests. OIG staff also conducted an analysis of significant cyber incidents identified
by FAA.

KPMG’s detailed methodology is documented in its report.             The following
summarizes the contractor’s scope and methodology:

 ¾ The contractor performed an external vulnerability assessment/penetration test
   by using open-source (freeware) and commercial scanning software. The test
   was done through an Internet connection at KPMG Headquarters. Based on
   OIG input, a total of 35 public-accessible Web application computers were
   included during the test.

 ¾ The contractor performed an internal vulnerability assessment/penetration test
   by using open-source and commercial scanning software. The test was
   conducted at FAA Headquarters. Based on OIG input, a total of 35 internal
   Web application computers were included in the test. To reduce any potential
   impact on ATC operations, a portion of the test was conducted at night.

OIG staff visited the FTI Security Operations Control Center in Melbourne, Florida,
and the DOT CSMC in Leesburg, Virginia. We interviewed Center officials,
examined available data pertaining to identified cyber incidents, and reviewed
intrusion-detection monitoring policies and procedures.

The audit work was performed between June 2008 and January 2009. We
conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                           15




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                           Title

Dr. Ping Zhong Sun                             Program Director for IT
                                               Audit Computer Laboratory

Mitchell Balakit                               Contracting Officer’s
                                               Technical Representative

Vasily Gerasimov                               Computer Scientist

Michael P. Fruitman                            Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                    16

APPENDIX A. MANAGEMENT COMMENTS


                     Federal Aviation
                     Administration

 Memorandum
 Date:          April 16, 2009
 To:            Rebecca C. Leng, Assistant Inspector General for Financial and Information
                Technology Audits
 From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
 Prepared by: Anthony Williams, x79000
 Subject:       OIG Draft Report: Review of Web Applications Security and Intrusion Detection
                in Air Traffic Control Systems


 The Federal Aviation Administration (FAA) appreciates the Department of Transportation
 (DOT) Office of the Inspector General (OIG) efforts in the subject draft report that will assist
 FAA in identifying weaknesses in the FAA web infrastructure that have not previously been
 detected.

 FAA operates with the ongoing knowledge that Cyber security is one of the key components to
 the safe operation of the National Air Space System (NAS) and Cyber security is a top priority
 for FAA as identified in the FAA Flight Plan. The Air Traffic Organization (ATO) places the
 highest priority on pursuing and maintaining a safe and secure Air Traffic Control (ATC)
 system.

 ATO recognizes that constant vigilance and effective and expeditious action are the keys to
 addressing Cyber security in its ATC systems. It has demonstrated its commitment to ensuring
 NAS safety and Cyber security through the extensive measures it has taken to reduce the risk of
 Cyber attack. Some of these steps include: implementing a comprehensive Information System
 Security (ISS) Program in support of Federal Information Security Management Act (FISMA)
 requirements; separating NAS operational ATC systems from Mission Support and
 Administrative systems; identifying and fixing Cyber security weakness in a prioritized process,
 with expedited processes in place to address critical issues identified as high priority; and
 modernizing ATO Cyber security through improvements in processes and technology.

 One important element of NAS system Cyber security is the separation of infrastructure
 elements. Specifically, the FAA networking infrastructure is comprised of two major networks
 that are separated physically and logically:



 Appendix A. Management Comments
                                                                                                   17
• The FAA Administrative/ATC Mission Support (Admin/MS) Network: Provides Wide
  Area Network (WAN) support to FAA services, except ATC operations.
• The National Airspace System (NAS) Network: Provides WAN services that support ATC
  operations. ATC systems are prohibited by FAA Order 1370.95, Wide Area Network
  Connectivity Security, from directly connecting to the FAA Admin/MS Network or any other
  on-NAS network.

The OIG report findings focus entirely on vulnerabilities associated with Admin/MS system
assets. The OIG used commercially available scanning tools to assess the security of the
Admin/MS elements of the ATO infrastructure and vulnerabilities were identified. FAA
recognizes the importance of dealing with all identified system vulnerabilities in a logical and
orderly manner, and will treat vulnerabilities identified in the OIG report with the utmost
diligence and conduct mitigation to include as many families of vulnerabilities as possible in
parallel. Immediate attention will be focused on mitigating high and moderate risk
vulnerabilities in FAA public facing websites and FAA websites that provide Mission Support
services.

OIG Recommendation 1: Ensure that all Web applications used in ATC systems are
configured in compliance with Government security standards.

FAA Response: Concur. The FAA Telecommunications Infrastructure (FTI) NAS IP WAN
currently has intrusion-detection-system (IDS) sensors deployed that monitor data flow into and
out of 27 ATC NAS operational facilities, which provides coverage for all NAS IP connected
facilities. In addition, internal NAS facility IP demarcation points between NAS entities and
Mission Support entities have been identified by the FAA as requiring additional IDS sensors to
be installed. Vulnerabilities identified in the OIG report will be prioritized based on their level
of risk and addressed through the ATO Certification and Accreditation (C&A) Remediation
Management process. Web applications are also assessed as part of system C&A Risk
Assessments conducted on a 3-year cycle, and will receive continued scrutiny and attention as
risks are identified.

FAA is actively analyzing the OIG audit report raw data, which will correlate OIG report
findings to FAA systems so that new Plans of Action and Milestones (POAMs) can be
developed. The analysis will be complete by April 30, 2009. The FAA uses the DOT Secure
Web Application Standards as the basis for securely configuring web applications and will
ensure that the web applications identified in the OIG report are in compliance with these
standards. New system POAM items will be developed by July 31, 2009; however, FAA will
take immediate corrective action on any critical vulnerabilities.

In addition, the ATO ISS Program Compliance/Audit Plan ensures that FAA has a valid NAS
ATC operational web application inventory that is configured in accordance with DOT Secure
Web Application Standards.

OIG Recommendation 2: Strengthen the patch management process by (a) identifying
Web applications with known vulnerabilities, and (b) promptly installing relevant security
patches in a timely manner.




Appendix A. Management Comments
                                                                                                 18


FAA Response: Concur. Security patching vulnerabilities identified in the OIG report will be
addressed via the ATO C&A Remediation Management process. The vulnerabilities identified
by OIG are being assessed, and remediation actions will be prioritized based on the level of risk
presented. As part of the ATO ISS Program Compliance/Audit Plan defined in Recommendation
1, the audit/compliance team will be auditing the existence of appropriate security patches. The
FAA is analyzing the specific scanning tool report data provided by OIG and is correlating
findings to FAA systems for POAM development. Patch implementation will be performed in
accordance with established FAA configuration management processes. System POAM items
will be developed by July 31, 2009; however, FAA will take immediate corrective action on any
critical vulnerabilities.

As part of its standardized process for patch management, ATO Security Certification Teams are
responsible for ensuring that patch management procedures are properly developed and
implemented. The ATO has developed a Standard Operating Procedure (SOP) template and
guidance document for the NIST SP 800-53 System Integrity (SI) control family that defines the
patch management procedures to be implemented for each system. The ATO ISS Program
conducted a workshop in December 2008 to review the security SOP guidance and ensure that
Security Certification Teams and System Owners understand the procedure development
requirements. FAA will continue its efforts to ensure that this process results in the timely and
effective implementation of system patches.

OIG Recommendation 3: Take immediate action to correct high-risk vulnerabilities and
establish a timetable for remediation of all remaining identified during this audit.

FAA Response: Concur. FAA recognizes that the vulnerability scanning tools used to perform
the OIG Web Audit did identify some vulnerabilities in the Admin/MS systems. The FAA takes
all security vulnerabilities very seriously and will ensure that the high rated vulnerabilities that
are correlated to FAA systems as part of the actions defined in the responses to
Recommendations 1 and 2 are handled as high priority configuration management changes for
immediate implementation. Implementation will be tracked via the POAM process. The FAA is
now reviewing the detailed data from the OIG's testing. As part of that review, it is evaluating
the extent of which those vulnerabilities identified in the draft report as high risk coincide with
FAA's definition of high risk and conform to NIST standards. In addition, vulnerabilities
identified by FAA internal scans are also receiving priority attention and will be remediated.
Lower priority issues will be addressed as appropriate. The review of vulnerabilities identified
by the OIG will be completed April 30, 2009. Based on the findings, the FAA will develop a
timetable for remediation by July 31, 2009; however, FAA will take immediate corrective action
on any critical vulnerabilities.

OIG Recommendation 4: Resolve differences with Cyber Security Management Center
(CSMC) and establish a timetable for deploying IDS monitoring devices covering local
area networks at all ATC facilities.

FAA Response: Concur. FAA intends to ensure that it has a smooth and effective working
relationship with the CSMC that is conducive to expeditious and effective interactions. While
FAA believes that the relationship with CSMC is essentially sound, within 30 days, the FAA


Appendix A. Management Comments
                                                                                                 19

Chief Information Officer (CIO) along with the CIO for ATO will meet with the CSMC
leadership to discuss strengths and weaknesses of interactions between their organizations and
identify any areas in need of improvement. In addition, the FAA CIO is creating service level
agreements with all FAA lines of business.

In regard to IDS monitoring devices, FAA has actions underway to complete its network of IDS
monitoring systems and is currently implementing and monitoring boundary and internal
network protection measures.

As an added measure of NAS operations network protection, the FAA FTI NAS IP WAN
currently has IDS sensors deployed that monitor data flow into and out of 27 ATC NAS
operational facilities, which provides coverage for all NAS IP connected facilities. The FTI
NAS IP WAN is configured to provide these IDS sensors with visibility into the data traffic
traveling into and out of the NAS operational LAN infrastructures as well as all other NAS IP
WAN connected facility LANs. This existing configuration allows for reviewing the majority of
IP data traffic that is used for NAS ATC operational systems. Additionally, the FTI service has a
Security Operations Center that monitors the IDS sensor data and works with appropriate FAA
Cyber security organizations, including the CSMC, to resolve security events.

As an additional level of protection, internal NAS facility IP demarcation points between NAS
entities and Mission Support entities have been identified by the FAA as requiring additional
IDS sensors to be installed. While it would not be appropriate to discuss the specific
demarcation points in this memo, FAA would be happy to provide details to the OIG in another
forum. However, we note that some of these IDS systems will be fully operational this year,
having passed key site testing on March 10, 2009. The current completion date for the
implementation of all IDS's at ARTS IIIE facilities is February 2010. A deployment strategy for
the remaining automation systems will be developed by December 2009.

OIG Recommendation 5. In conjunction with CSMC officials, identify the information
needed for remediation and establish procedures to ensure timely remediation of cyber
incidents based on criticality as assessed by CSMC.

FAA Response: Concur. The ATO has recently implemented two process improvements: a
Reconciliation of Findings process; and an Open Incident Handling process, thereby reducing the
number of open incidents. The improved processes have reduced the amount of time to respond
to new CSMC findings, provided more efficient tracking of all open findings, and allowed for
more comprehensive documentation and reporting capability.

In conjunction with CSMC, ATO has taken steps to improve timely response of cyber incidents.
Specifically, the CSMC and ATO are working together through focused meetings and cyber
security related workshops to refine the process of identifying the criticality of information for
event remediation. A refined process will be developed by August 2009.


S:\\ABU-100\Share\OIG GAO\08-30 Web Applications Security doc:ARWilliams 4/16/09




Appendix A. Management Comments
The following pages contain textual versions of the tables and figure found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
 Review of Web Applications Security and Intrusion Detection in Air Traffic
                            Control Systems.

                     Section 508 Compliance Presentation.



Table 1. Internet-based and Internal Security Testing Results.

35 Internet-based or public use web applications were tested. On those web based
applications 212 high risk, 169 medium risk, and 1,037 low risk vulnerabilities
were found.

35 internal or Federal Aviation Administration use web applications were tested.
On those web based applications 551 high risk, 335 medium risk, and 1,553 low
risk vulnerabilities were found.

The total number of tested web application was 70. A total of 763 high-risk, 504
medium-risk and 2,590 low-risk vulnerabilities were found.

Source: KPMG.

Figure 1.      Air Traffic Control Internet Protocol Based Network
Infrastructure.

This infrastructure consists primarily of the backbone Federal Aviation
Administration Telecommunications Infrastructure and several local area
networks; Federal Aviation Administration relies on this infrastructure to conduct
Air Traffic Control operations. Air Traffic Control systems are hosted on local
area networks at Air Traffic Control facilities, which have connections to both
Federal Aviation Administration Telecommunications Infrastructure operational
and mission-support networks.


Table 2. Cyber Security Management Center Intrusion Detection Systems
Sensor Coverage.

For the en route centers, the total number of facilities was 21, the number of
facilities with Intrusion Detection Systems sensors installed on the Air Traffic
Control network was 0 and the number of facilities with Intrusion Detection
Systems sensors installed on the mission-support network was 5.
For the terminal radar approach control facilities, the total number of facilities was
166. For the airport traffic control towers the number of facilities was 512. For the
combined terminal radar approach control facilities and airport traffic control
tower facilities the number of facilities with Intrusion Detection Systems sensors
installed on the Air Traffic Control network was 0 and the combined number of
facilities with Intrusion Detection Systems sensors installed on the mission-
support network was 4.

For the flight service stations, the total number of facilities was 33, the number of
facilities with Intrusion Detection Systems sensors installed on the Air Traffic
Control network was 0 and the number of facilities with Intrusion Detection
Systems sensors installed on the mission-support network was 0.

For the Federal Aviation Administration Technical Center, the total number of
facilities was 1, the number of facilities with Intrusion Detection Systems sensors
installed on the Air Traffic Control network was 0 and the number of facilities
with Intrusion Detection Systems sensors installed on the mission-support network
was 1.

For the Mike Monroney Aeronautical Center, the total number of facilities was 1,
the number of facilities with Intrusion Detection Systems sensors installed on the
Air Traffic Control network was 0 and the number of facilities with Intrusion
Detection Systems sensors installed on the mission-support network was 1.

For the remote sites, the total number of facilities is in the thousands, the number
of facilities with Intrusion Detection Systems sensors installed on the Air Traffic
Control network was 0 and the number of facilities with Intrusion Detection
Systems sensors installed on the mission-support network was 0.

The total number of major Air Traffic Control facilities was 734, excluding the
remote sites. The total number of facilities with Intrusion Detection Systems
sensors installed on the Air Traffic Control network was 0 and the total number of
facilities with Intrusion Detection Systems sensors installed on the mission-
support network was 11.

Source: Federal Aviation Administration.
